ACTIONS TAKEN AND NEEDED TO IMPROVE
 FAA’S RUNWAY SAFETY AREA PROGRAM
       Federal Aviation Administration

        Report Number: AV-2009-039
         Date Issued: March 3, 2009
           U.S. Department of
                                                                 Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Actions Taken and Needed To                                          Date:   March 3, 2009
           Improve FAA’s Runway Safety Area Program
           Federal Aviation Administration
           Report Number AV-2009-039

  From:    Lou E. Dixon                                                             Reply to
                                                                                    Attn. of:   JA-10
           Assistant Inspector General for Aviation
            and Special Program Audits

    To:    Acting Federal Aviation Administrator

           This report presents the results of our audit of the Federal Aviation
           Administration’s (FAA) Runway Safety Area (RSA) program. An RSA is a
           rectangular space around a runway that provides critical safety margins for landing
           and departing aircraft, thereby helping to minimize the risk to aircraft and
           passengers from flights that undershoot, overrun, or veer off a runway.

           Over the last 10 years, 75 aircraft have overrun or veered off the Nation’s
           runways, resulting in nearly 200 injuries and 12 fatalities. In February 2005,
           14 people were injured after an aircraft overran a runway at Teterboro Airport in
           New Jersey. Ten months later, another aircraft skidded off a runway while
           landing in icy conditions at Chicago’s Midway Airport. The aircraft finally
           stopped in a public street—killing 1 person and injuring 4 persons in a car and
           another 18 on board the aircraft. In November 2005, Congress, in consultation
           with FAA, mandated that all Part 139 airport 1 sponsors enhance passenger safety
           by improving their RSAs by 2015 and that FAA report annually on its progress
           toward improving RSAs.

           Our audit objectives were to (1) assess airport sponsors’ and FAA’s progress and
           challenges, if any, in fulfilling the congressional RSA mandate and (2) evaluate
           the effectiveness of FAA’s process for identifying, prioritizing, and funding
           needed RSA improvements. We conducted the audit from November 2007
           through November 2008 in accordance with generally accepted Government

           1
               “Part 139” airports conduct commercial passenger flight operations and must comply with standards contained in
               14 CFR § 139 (2005).
                                                                                                                 2


Auditing Standards prescribed by the Comptroller General of the United States.
Exhibit A details our audit scope and methodology, and exhibit B lists the sites
visited or contacted.

BACKGROUND
To reduce the risks associated with aircraft undershooting, overrunning, or veering
off runways, in 1988, FAA established the current standards for RSAs. 2
According to these standards, RSAs must be cleared, drained, and capable of
supporting the weight of commercial aircraft. They must also meet dimensional
requirements, typically 1,000 feet by 500 feet at each runway end and 250 feet
from the runway centerline (see figure 1).

                             Figure 1. RSA Dimensional Standards

                        1,000 feet


                                                    250 feet
    500 feet
                                      28




                                                                                          10
                                            RSA Surrounding a Runway



If an RSA cannot meet dimensional standards, FAA allows airport sponsors to
improve RSAs through alternative means, such as declared distances (i.e.,
declaring the usable runway length to be less than the actual runway length) or an
Engineered Material Arresting System (EMAS). 3 Moreover, if improving an RSA
costs more than an equivalent EMAS installation, 4 FAA may declare the RSA
impracticable to improve. In such cases, FAA works with the airport sponsor to
improve the RSA as much as possible (e.g., installing a partial EMAS). However,
in about 2 percent of cases, improvements are so expensive that FAA does not
require any further action.

In addition, RSAs must be free of objects, such as approach lighting systems
(ALS), instrument landing systems (ILS), and other navigational aids (NAVAIDs),
unless these objects need to be in the RSA to operate properly. If objects cannot
be removed from the RSA, they must be frangible (i.e., designed to break away
when hit by a plane) at a height of 3 inches or less from the ground.


2
    14 CFR I39.309 “Safety Areas.”
3
    An EMAS is comprised of porous concrete that can absorb the weight of an aircraft, allowing it to slow or stop.
    According to FAA, a 600-foot EMAS is equivalent to a 1,000-foot RSA.
4
    According to FAA, the maximum improvement costs range between $7 million and $33 million depending on
    aircraft size and local construction costs.
                                                                                                                 3


After a fatal 1999 crash at Little Rock Airport in Arkansas, in which an aircraft
overran the runway while attempting to land in bad weather, FAA established the
RSA Program to identify and address RSAs needing improvement. The program
allowed those improvements to begin at any time, rather than wait until a major
runway project was initiated. At that time, FAA identified a universe of
1,024 RSAs needing improvement at commercial service airports and designated
317 of these as priorities because they posed the greatest risk to passengers during
an overrun accident. The number of priority RSAs increased to 454 by 2008 due
to new technology and policy changes. FAA also developed a schedule to upgrade
these priority RSAs by the 2015 congressional deadline. Despite this effort, after
an overrun at Burbank Airport in California, the National Transportation Safety
Board (NTSB) recommended in 2003 that FAA require all Part 139 airports to
upgrade RSAs that could, with feasible improvement, be made to meet standards.

FAA and airport sponsor efforts to improve RSAs have resulted in tangible
aviation safety enhancements across the Nation. For example, RSA improvements
helped prevent significant damage and injuries during a June 2007 runway overrun
at Santa Barbara Municipal Airport in California. In addition, EMAS have proved
effective in stopping aircraft during several overrun incidents since 1999,
including three at John F. Kennedy International and one at Chicago O’Hare
International.

RESULTS IN BRIEF
Overall, we found that FAA and airport sponsors have made significant progress
since 2000—with the Agency reporting that 327 of 454 priority RSAs (more than
70 percent) have been improved. Nevertheless, challenges still remain in bringing
the remaining RSAs up to standards, especially at 11 of the 30 largest airports. 5
These 11 airports handle over one-fourth of the Nation’s passenger traffic and face
major man-made, natural, environmental, and legal challenges that may prevent
them from achieving needed RSA improvements by the 2015 congressional
deadline.

We also found that FAA was generally effective in identifying, prioritizing, and
funding needed RSA improvements, with two major exceptions: NAVAIDs and
data quality. Specifically, non-compliant NAVAIDs, some of which pose
significant safety risks, remained in over 40 percent (67 of 163) of the RSAs we
reviewed. Moreover, inaccurate, incomplete, or outdated data have hampered
FAA’s ability to track and report on RSA improvements. In particular, FAA’s
annual report to Congress, which was based on these data, was too general and did
not provide sufficient detail for decision makers. The report also overstated the

5
    FAA defines large hub airports as those airports that each account for at least 1 percent of all U.S. passenger
    enplanements.
                                                                                              4


number of RSAs meeting full standards, especially those RSAs containing non-
compliant NAVAIDs.

Until these challenges and problems are addressed, aircraft will remain vulnerable
to damage and, more importantly, their passengers remain at risk of potential
injury from flights that undershoot, overrun, or veer off a runway lacking a
standard RSA.

RSAs at 11 of the Nation’s 30 Largest Airports Face Major Challenges
in Achieving Needed Improvements
Man-made, natural, environmental, and
                                                   Figure 2. RSA Obstacles at
legal challenges have delayed efforts to             Reagan National Airport
make needed RSA improvements at
11 of the Nation’s largest airports (see
exhibit C for a list of these airports and
                                                                         120 ft. to Parkway
existing constraints).       While FAA
provides guidance, funding, and
oversight for RSA improvements, the
airport    sponsor      has    substantial
discretion in determining what actions
to take and when to take them.

For example, RSA improvements at                             170 ft. to Potomac River

Reagan National Airport in Washington
D.C. (see figure 2) are hindered by the
George Washington Parkway, the
Potomac River, and an environmental                 Environmental
                                                    Clean-Up Site
clean-up site.
                                                     Superfund Site

The airport sponsor has conducted
multiple studies over 26 years on how         Source: Google and OIG
to bring this airport’s three RSAs up to
standards and has considered options such as installing a partial EMAS,
repositioning one or more runways, reducing the operational runway length, and
extending one runway into the Potomac River. Although FAA supports the use of
EMAS, the airport sponsor has been reluctant to select this option due to concerns
about the impact of periodic flooding on this system. Overall, FAA estimates
RSA improvements at Reagan National could cost upwards of $109 million.

Although FAA is working with airport sponsors to bring RSAs up to standards, the
Agency needs to expedite ongoing efforts to achieve needed improvements. As
the table below illustrates, there have been at least four serious accidents involving
                                                                                                          5


overruns since 1999. In each case,
RSA improvements were made                           Table. Examples of Major Runway Accidents
after the accidents—improvements                            Involving Non-Standard RSAs
                                                             Airport            Date        Impact
that    could    have     prevented
                                                                                        105 injuries and
80 injuries and 1 fatality had they                  Little Rock National       6/99
                                                                                        11 fatalities
been completed sooner. As these                      Bob Hope Burbank
examples demonstrate, critical RSA                                              3/00    44 injuries
                                                     Airport
improvements need to be made at
                                                     Teterboro Airport          2/05    14 injuries
the 11 large airports sooner rather
than later to lower the risk of                                                         22 injuries and
                                                     Midway International       12/05
passenger injuries and aircraft                                                         1 fatality
damage in the event of runway                       Source: NTSB
accidents.

RSAs Contain NAVAIDs That Pose Safety Risks to Aircraft and
Passengers
Although FAA has made progress addressing non-compliant NAVAIDs, 67 of
163 RSAs we reviewed still had NAVAIDs that needed to be relocated or
modified. To comply with FAA standards, NAVAIDs need to be either relocated
outside the RSA or made frangible (i.e., breakable) at 3 inches or less above the
ground. Non-compliant NAVAIDs can contribute to increased aircraft damage
and potential loss of life. For example, in 1975, an aircraft collided with a non-
frangible ALS at John F. Kennedy International Airport.              As a result,
113 passengers died, and the aircraft was substantially damaged. More recently,
in 2007, an aircraft overran the runway at Dekalb-Peachtree Airport, striking a
NAVAID. While there were no fatalities or injuries, there was significant damage
to the aircraft’s wing (see figure 3 on page 6).

Non-compliant NAVAIDs remain in RSAs for various reasons, including
(1) insufficient coordination between FAA’s Office of Airports and its Air Traffic
Organization (ATO)6 (2) lack of guidance on the use of new frangible bolts for
NAVAIDs; (3) inadequate planning regarding NAVAID relocation or
modification; and (4) Airport Improvement Program (AIP) funding restrictions.
Combined, these factors have resulted in an inconsistent, disjointed process in
which some NAVAIDs are corrected, some partially corrected, and some not
addressed at all. To reduce the safety risks posed to passengers by non-compliant
NAVAIDs, FAA needs to develop and implement a program for relocating or
modifying NAVAIDs in RSAs, which should include improved coordination,
greater use of new frangible bolts, and a funding plan for targeting those
NAVAIDs posing the greatest safety risk.

6
    The Office of Airports oversees compliance with the RSA standards, and the ATO manages Agency NAVAIDs in
    RSAs.
                                                                                        6


                Figure 3. Aircraft Damage from Hitting NAVAID
                          at Dekalb-Peachtree Airport




  Source: FAA



Incorrect, Incomplete, or Outdated Data Limit FAA’s Ability To
Oversee and Accurately Report RSA Improvements
We found errors in the Office of Airports
                                                  Figure 4. Data Errors in FAA’s
RSA Inventory (i.e., database), including                 RSA Inventory
incorrect, missing, or outdated data. Of the
                                               ¾ RSA Inventory states that an RSA
163 RSAs we reviewed, 64 (38 percent) had
                                                 at Baltimore Washington
at least 1 data error (see figure 4 for          International Airport meets
examples).     These errors affect FAA’s         standards even though it is less
ability not only to oversee the RSA program      than the required 250 feet on 1 side
but also to provide accurate and                 of the runway.
comprehensive reports to Congress on the       ¾ RSA Inventory states that an RSA
status of RSA improvements and future            at Dulles International Airport
funding requirements.                            meets standards, even though an
                                                 ILS needs to be relocated.
Such inaccuracies in the RSA Inventory         ¾ RSA Inventory states that
occur because the Office of Airports             $39 million was needed for a
                                                 major runway and RSA project at
(1) does not have sufficient guidance and        Los Angeles International Airport
training on how to properly identify, track,     when it had been completed 1 year
and report on needed RSA improvements;           earlier.
                                                                                                                     7


(2) focuses on maintaining RSA dimensional data versus information on
NAVAIDs; and (3) uses inadequate data verification and validation.

For example, there is no standard form to document determinations 7 to ensure all
data elements are captured and consistently identified. As a result, every FAA
region uses varying forms and terminology to complete determination paperwork.
FAA regions also manually upload their determination data into the national RSA
Inventory, with no data verification conducted by either the regions or the Office
of Airports. Thus, the information in the determinations and the RSA Inventory is
often inconsistent or contradictory. In addition, some of the 327 RSAs reported as
“improved” may still need to be addressed. Also, as a result of inaccurate data,
FAA’s annual report to Congress overstates the extent to which RSAs fully meet
standards, especially those RSAs containing non-compliant NAVAIDs.

Our recommendations to FAA focus on (1) developing an action plan for
improving RSAs at 11 large airports to the fullest extent practical; (2) developing
and implementing an effective program for addressing NAVAIDs located in RSAs
to ensure their timely removal or modification; (3) issuing detailed guidance and
conducting training for those responsible for identifying, tracking, and reporting
on the status of RSAs; (4) implementing quality control procedures to ensure the
accuracy and integrity of RSA data; and (5) expanding the annual report to
Congress to better reflect the true status of RSA improvement activities. Our
complete recommendations are listed on page 18.

FINDINGS
Overall, we found that FAA and airport sponsors have made significant progress
since 2000—with the Agency reporting that 327 of 454 RSAs (more than
70 percent) have been improved. Nevertheless, various challenges still remain in
bringing the remaining RSAs up to standards, including 11 of the 30 largest
airports. Given the large number of passengers these airports serve, it is critical
that FAA and airport sponsors expedite ongoing efforts to achieve needed
improvements.

We also found that FAA was generally effective in identifying, prioritizing, and
funding needed RSA improvements. For example, FAA has awarded $1.2 billion
in AIP grants for RSA improvements. 8 Nevertheless, FAA needs to make
improvements in two significant areas—NAVAIDs and data quality. Specifically,

7
    Determinations are used by FAA field staff to identify and document the status of the RSA and what improvements
    are needed. Determinations include such details as RSA dimensions, grading, slope, and whether NAVAIDs are
    located within the RSA boundaries.
8
    The AIP, which is administered by FAA’s Office of Airports, supports the Nation’s airport system by providing
    funds to enhance safety and security, maintain the infrastructure, increase capacity, and mitigate airport noise in
    surrounding communities. In 2007, the program awarded grants worth more than $3.3 billion to airport sponsors.
                                                                                                            8


over 40 percent of the RSAs we examined contain NAVAIDs that need to be
relocated or made frangible. Although FAA has moved or modified some
NAVAIDs over the last 3 years, many still remain unaddressed—including some
that pose significant safety risks to aircraft and their passengers. Moreover,
inaccurate, incomplete, or outdated data have hampered FAA’s ability to track and
report on RSA improvements. Until such data problems are corrected, it will be
difficult for FAA to ensure needed improvements are made by the congressional
deadline of 2015. We also found that FAA’s annual report to Congress, which
was based on these data, was too general and did not provide sufficient detail for
congressional decision makers.

FAA Needs To Expedite RSA Improvements at 11 Large Airports
Facing Significant Challenges in Meeting Standards
We identified 11 large airports 9 that face significant challenges to bringing their
RSAs up to standards, including man-made, natural, and other constraints. These
challenges, in turn, have significantly delayed efforts to improve RSAs at airports
such as Reagan National and San Francisco International—in the former case for
more than 26 years. The challenges also raise questions as to whether the RSAs at
some of the 11 airports will ever be improved. Yet, as incidents at Burbank,
Midway, and Teterboro airports have demonstrated, only after serious accidents
were the resources marshalled and decisions made to achieve needed
improvements—improvements that could have prevented injuries and saved lives
if done earlier. While FAA and airport sponsors are working to overcome the
challenges facing the 11 large airports, it is critical that these efforts be expedited
to avoid a repeat of the past and ensure the safety of the flying public.

Past Delays in Improving RSAs Have Resulted in Serious Consequences
At Burbank, Midway, and Teterboro airports, delays in achieving needed RSA
improvements have had significant repercussions during overrun accidents. For
example, in 2000, FAA determined that an RSA at Chicago’s Midway airport was
impracticable to improve because it would require moving roads and result in
significant and costly impacts on local neighborhoods. Four years later, the airport
sponsor estimated that the project’s property acquisition alone would involve
moving hundreds of commercial and residential buildings and cost between
$200 million and $300 million. The sponsor also considered installing an EMAS
but concluded that too little space was available. Then in 2005, an aircraft overran
the runway at Midway and finally stopped in a public street—killing 1 person and
injuring 4 persons in a car and another 18 on board the plane. Two years after the


9
    Baltimore-Washington, Boston-Logan, Charlotte-Douglas, Fort Lauderdale/Hollywood, John F. Kennedy,
    LaGuardia, Los Angeles International, Philadelphia International, Phoenix-Sky Harbor, Reagan National, San
    Francisco International.
                                                                                                                     9


accident, the airport sponsor installed a partial EMAS at a cost of $5.8 million. 10
The EMAS manufacturer estimated that this partial solution, if implemented
earlier, could have prevented the aircraft from skidding into the street.

Similarly, FAA determined it was impractical to construct a full RSA at Burbank
and Teterboro airports because of urban development and high improvement costs.
While both airports had been evaluating improvement options, partial EMAS
systems were installed only after serious overruns occurred at both airports that
resulted in a total of 58 injuries.

Eleven Large Airports Face Serious Challenges in Achieving Needed
RSA Improvements
We found that 11 of the 30 largest airports—representing nearly one-fourth of all
passenger enplanements in 2006—are facing significant challenges to bringing
one or more RSAs up to standards (see exhibit C for more information on these
airports). These challenges are man-made, natural, environmental, and legal. 11
While FAA is working with these airports to overcome such challenges, some of
the needed improvements may take some time to complete. For instance, RSA
construction projects can be delayed by local lawsuits and community opposition 12
as well as environmental reviews, which can take between 2 and 12 years to finish.
Moreover, projects may be delayed if airport revenue drops or financial partners
withdraw from airfield improvements. As a result, it may prove difficult for some
of these airports to make needed improvements by the 2015 congressional
deadline.

For example, over the last 26 years, Reagan National Airport has conducted
various studies on how to overcome significant constraints to improving RSAs.
Its runways are bordered by the George Washington Parkway, Potomac River, and
an environmental clean-up site (see figure 5 on page 10). One of the airport’s
three RSAs (pictured in green), which is affected by the environmental clean-up
site, is undergoing an FAA-required environmental assessment, which must be
completed before the RSA improvement can begin. Once the assessment is
completed later this year, the airport sponsor plans to extend the runway to the
south and use declared distances 13 to fulfill FAA standards.


10
     FAA officials note that this system represented an improvement over earlier technology, providing added protection
     from jet blast.
11
     Examples of specific challenges are: man-made (highways, railroad tracks, and urban development), natural (bays
     and rivers), environmental (noise restrictions and environmental clean-up sites), and legal (local opposition).
12
     For example, improvements to Sikorsky Memorial Airport in Connecticut have been delayed for about 15 years
     because of disagreements between the airport sponsor and a local community, even though the deficient RSA was a
     factor in 1994 and 2001 accidents.
13
     To meet FAA’s RSA standards, an airport sponsor can declare the usable operational length of a runway to be less
     than the actual runway length.
                                                                                                    10


For the second RSA (pictured in red), the                Figure 5. Constrained RSAs at
airport sponsor is examining several                        Reagan National Airport
options, ranging from a partial to full
EMAS—the latter of which would require
                                                                                          Potomac
an extension into the Potomac River.                                                      River
Since the cost of either option exceeds




                                                                 ay
FAA’s maximum cost figure of




                                                             n P a rk w
$18 million for determining practicability
for this runway, the sponsor and FAA may




                                                        hingto
decide to pursue only a partial
improvement.




                                                     e W as
                                                  G e o rg
For the third RSA (pictured in yellow),
which is also affected by the
environmental clean-up site, the airport
sponsor is considering extending the
runway, installing a partial or full EMAS,
or limiting the runway to smaller aircraft.
While FAA has long supported the use of                                   Environmental
                                                                          Clean-Up Site
EMAS at Reagan National, airport
officials have been reluctant to select this    Source: Google & OIG
option due to concerns about the impact of
seasonal flooding on an EMAS.

For both the red and yellow RSAs, the sponsor does not plan to make a final
decision until the environmental review process is completed over the next
2 years. Yet, depending on what decisions are made, additional environmental
reviews or legal challenges could cause further delays in completing needed
improvements. Overall, the airport           Figure 6. Constrained RSAs at
sponsor estimates RSA improvements               San Francisco Airport
at Reagan National could cost
upwards of $109 million.

Similarly, San Francisco International
Airport faces significant challenges in
bringing all four of its RSAs up to
standards. The runways are bordered
by San Francisco Bay and Highway
101 (see figure 6). Although the
airport sponsor is conducting a study
to determine how best to address the
airport’s four RSAs, the sponsor
tentatively plans to use declared          Sources: Wikipedia & OIG
                                                                                      11


distances to bring one pair (pictured in yellow) up to standards. The other pair
(pictured in red) will be far more difficult to correct. Airport officials stated that it
may be impossible to extend these RSAs at each runway end within current airport
property limits and, as a result, it may be impracticable to improve the red RSAs
to full dimensional standards.

Boston Logan Airport faces similar            Figure 7. RSA EMAS Extension Project at
RSA constraints, including a major                          Boston Airport
waterway,        surrounding     urban
development, and environmental
restrictions. Yet, over the last
several years, the airport has
constructed partial EMAS on two
of its RSAs—one of which was
fully funded by the airport sponsor
as an interim measure. The airport
is working with FAA to construct
an EMAS on this RSA, which will
involve filling in or constructing a
ramp into the Boston Harbor (see
                                            Sources: Wikipedia & OIG
figure 7).       According to FAA
officials, this project is estimated to cost more than $40 million, which exceeds the
Agency’s maximum cost figure (i.e., approximately $24 million) for determining
practicability for this runway.

FAA regional officials, however, were able to get support from the Office of
Airports for this project based on a number of key factors, including:

 • a 1982 accident in which an aircraft went off the runway into Boston Harbor
   killing two passengers;
 • the runway’s critical role in servicing large jet aircraft (e.g., Boeing 747); and
 • Boston Logan’s importance as the domestic and international gateway to New
   England.

While FAA and airport officials hope to complete the project by the 2015
congressional deadline, the extra effort being taken to bring this RSA to full
standards should serve as a model for other airports facing similar challenges.

Because of the safety risk from not improving RSAs—such as with Midway
Airport—it is important that FAA and airport sponsors complete RSA
improvements as soon as possible at the 11 airports. For Reagan National, San
Francisco International, and the other nine airports, FAA regional offices should
exhaust all options—as is being done at Boston Logan airport—before declaring
                                                                                12


RSAs impracticable to improve or deciding on only partial improvements. In
doing so, the Office of Airports should develop an action plan for ensuring RSAs
at the 11 large airports are improved as soon as possible and to the fullest extent
practical. This plan should include projected milestones and costs, a designated
improvement method, and the extent to which RSAs will meet standards.

FAA Needs To Ensure the Timely Removal or Modification of
NAVAIDs in RSAs
Although FAA reports having relocated or modified NAVAIDs in more than
60 RSAs over the last 3 years, approximately 38 percent (394 of 1,016) of all
RSAs still contain one or more non-compliant NAVAIDs—including some that
pose considerable safety risks to aircraft and their passengers. We found that FAA
has not addressed these NAVAIDs for various reasons, including insufficient
coordination, lack of guidance on the use of new frangible bolts, inadequate
planning, and AIP funding restrictions. Combined, these factors have resulted in
an inconsistent, disjointed process in which some NAVAIDs are corrected, others
only partially corrected, and others—some of which pose safety risks—are not
corrected at all.

Non-Frangible NAVAIDs Remain in RSAs and Can Pose a Safety Risk to
Aircraft and Their Passengers
We found that over 40 percent (67 of 163) of the RSAs we reviewed had one or
more NAVAIDs that need to be relocated or made frangible. NAVAIDS are
lighting and instrument guidance systems—such as ALS and ILS—that aid in the
landing of aircraft. Such equipment can vary in height, ranging from several feet
to more than 40 feet. While design standards issued by the Office of Airports
Engineering Division allow NAVAIDs to be located in RSAs in order to function
properly, they must be made frangible at no more than 3 inches above the ground.
In addition, FAA’s ATO is responsible for installing and maintaining all Agency-
owned NAVAIDs in RSAs, as well as ensuring that such equipment meets design
standards.

Large NAVAIDs that are not moved or made frangible can pose a considerable
safety risk to aircraft and passengers when struck during an overrun. For example,
in June 1975 a Boeing 727 crashed into several non-frangible ALS towers while
attempting to land at John F. Kennedy Airport in New York. Of the 124 persons
aboard, 113 died of injuries received in the crash. Likewise, in November 1976,
an aircraft taking off at Stapleton International Airport in Denver Colorado
collided into two non-frangible ALS structures resulting in 14 injuries.

In response to the Stapleton incident, the NTSB recommended that FAA expedite
retrofitting of ALS structures with frangible materials so that the improvements
would be completed within 3 to 5 years. However, more than 30 years later, we
                                                                                   13


found that non-frangible ALS remain in RSAs and continue to pose a safety risk to
aircraft and passengers. For example, the ATO is aware of several non-frangible
ALS structures located within the RSAs at Sacramento International Airport, but it
has not funded efforts to remove them or make them frangible. We also found that
other large non-frangible structures, such as ILS glide slope antennae and
associated power sheds, remain in RSAs (see figures 8 and 9).

     Figure 8. Glide Slope Antenna at              Figure 9. Power Shed at
           Long Beach Airport                        Long Beach Airport




     Source: OIG                              Source: OIG

Insufficient Coordination Has Impeded FAA’s Tracking of NAVAIDs in
RSAs
We found that the Office of Airports and ATO field offices we visited rarely
coordinated to (1) determine the status of all NAVAIDs within RSAs; (2) ensure a
plan was in place to relocate those NAVAIDs outside the RSA; or, if relocation
was not an option, (3) ensure the equipment met frangibility requirements. While
the Office of Airports and the ATO worked together in 2000 and 2005 in
identifying NAVAIDs in RSAs, the two organizations have not conducted any
further surveys.

Moreover, while the Office of Airports and the ATO have coordinated the
relocation or modification of NAVAIDs on a case-by-case basis, they have not
developed a nationwide plan to address all NAVAIDs in RSAs, with priority given
to those posing the greatest safety risks to aircraft and passengers. As a result, the
Office of Airports officials did not always know what NAVAIDs may have been
moved or modified over the last 3 years. This was the case for two non-compliant
ILS antennae that had been relocated at Los Angeles and Sacramento airports after
the 2005 survey. In both cases, the RSA Inventory did not reflect that these
improvements had been completed. Both the Office of Airports and the ATO
recognize that they need to solve this problem and have discussed the need to
develop a plan and schedule for moving non-compliant NAVAIDs out of RSAs.
                                                                             14


Lack of Guidance Has Limited the Use of New Frangible Bolts in
Correcting Non-Compliant NAVAIDs
Insufficient guidance on the use of new frangible bolts has
                                                             Figure 10. 3-Inch
prevented many NAVAIDs from meeting FAA’s                     Frangible Bolt
standards. Certain NAVAIDs, because of their size or
location, previously could not meet the 3-inch standard
without compromising their structural integrity. However,
in 2006, the Office of Airports Engineering Division
started approving the use of 3-inch frangible bolts (see
figure 10) on ALS and ILS applications. Although some
NAVAIDs have been installed or retrofitted with the new
bolts, the Office of Airports has yet to issue formal
                                                             Source: FAA
guidance to FAA field personnel on how the bolts should
be applied. This has hampered efforts to retrofit existing NAVAIDs and ensure
full compliance with FAA’s 3-inch frangibility standard.

Inadequate Planning and AIP Funding Restrictions Prevent the Timely
Relocation and Modification of NAVAIDs
The ATO, though responsible for installing and maintaining FAA NAVAIDs, has
not adequately planned for the relocation or modification of non-compliant
NAVAIDs in RSAs. For instance, the ATO’s annual Business Plan lists the
various projects that are most likely to receive funding. Although the Business
Plan supports the maintenance and upgrading of NAVAIDs for operational
purposes, it does not prioritize the need to relocate or modify non-compliant
NAVAIDs in RSAs. As a result, the ATO has not provided the funding necessary
for the relocations and modifications. The one exception is NAVAIDs in RSAs
that need to be replaced for operational reasons. In these situations, the ATO
works to ensure the new NAVAIDs meet RSA standards.

In contrast, the Office of Airports is responsible for ensuring compliance with
RSA standards, but it is restricted from permitting airport sponsors to use AIP
funds to address non-compliant NAVAIDs in RSAs. The primary exception is the
relocation or modification of a NAVAID affected by a larger project, such as a
runway extension (i.e., the NAVAID must be moved). Another exception is a
change in runway operations that requires a larger RSA, such as when a runway is
used by jet aircraft instead of propeller planes. Consequently, the restrictions
placed on the use of AIP funds have prevented the Office of Airports from using
                                                                                                            15


them to help in the removal and modification of non-compliant NAVAIDs
remaining in RSAs. 14

Given the lack of ATO planning and AIP funding restrictions, FAA needs to
develop a plan for addressing non-compliant NAVAIDs that places a higher
priority on NAVAIDS posing the greatest threat in the event of a runway overrun
or undershoot. This plan should identify and prioritize NAVAIDs that need to be
addressed, develop a schedule for relocating or modifying them, and request
sufficient funds for accomplishing all related tasks.

FAA also needs to improve the coordination between the Office of Airports and
the ATO in monitoring NAVAIDs that have been relocated or modified. Further,
FAA needs to issue guidance to field personnel on the use of frangible bolts.
Finally, FAA needs to develop a plan for addressing those NAVAIDs posing the
greatest threat to aircraft and their passengers.

FAA Needs To Establish an Effective Process for Identifying,
Tracking, and Reporting RSA Improvements
FAA’s ability to effectively identify, track, and report on the status of RSA
improvements is hampered by inaccurate, incomplete, or outdated data. Such data
problems are due to several factors, including insufficient guidance and training
for FAA field personnel responsible for entering data into the RSA Inventory and
lack of quality assurance controls. This hinders FAA’s ability to monitor the
status of its RSA Program and ensure achievement of the congressional mandate.
In addition, FAA’s annual report to Congress contains inaccurate information and
does not identify specific RSAs that do not meet standards (e.g., contain non-
compliant NAVAIDs), describe planned improvements, or list challenges that
could prevent individual RSAs from meeting the 2015 deadline.

FAA’s Oversight of Needed RSA Improvements Is Hampered by
Inaccurate or Outdated Data
During our audit, we compared RSA determinations and inventory records for
163 RSAs and found numerous errors and inconsistencies between the various
documents. Of the 163 RSAs we reviewed, 64 (39 percent) contained 1 or more
data errors and 59 (36 percent) did not support the information in the RSA records.
Inaccuracies included outdated, missing, or erroneous data entries in both the
determination and RSA Inventory.



14
     In an effort to establish an alternative means of funding NAVAID improvements, FAA proposed a pilot program
     under which the Administrator would transfer ownership and operating and maintenance responsibilities for
     NAVAIDs to 10 medium or large hub airports. Submitted as part of FAA’s 2007 reauthorization bill, Congress
     never acted upon the proposal.
                                                                                 16


FAA personnel in the regions and Airport District Offices are responsible for
determining the status of RSAs and their needed improvements, to include details
on RSA dimensions, grading, and slope and whether objects or NAVAIDs are
located within the RSA boundaries. 15 FAA regional personnel manually enter this
information into the RSA Inventory database, which was developed in 1999 to
help manage the program. FAA uses this database to track progress, measure
system-wide compliance of the RSA program, determine future funding needs,
and prepare the annual report to Congress.

We found the determinations or RSA Inventory data for some RSAs had either not
been updated to reflect changes or contained contradictory information. These
inaccuracies are caused by various factors, including insufficient guidance and
training, poor coordination among field personnel, and lack of quality controls.
Specifically:

     • There is no standard form to document determinations to ensure all data
       elements are captured and consistently identified. As a result, every region
       uses varying forms and terminology to complete determination paperwork,
       which leads to inconsistent types of data being gathered.
     • Determinations and the RSA Inventory are not linked electronically. Thus, the
       information between the two is often inconsistent and contradictory.
     • Regional FAA offices manually upload their determination data into the
       national RSA Inventory database; however, they do not always do so in a
       timely manner, and the data are not verified by the Office of Airports.
     • The RSA Inventory does not include current data on NAVAIDs in RSAs due
       to the lack of coordination between the Office of Airports and the ATO. For
       example, the RSA Inventory states that (1) an ILS antenna within a Los
       Angeles International Airport RSA needs to be relocated or made frangible,
       even though the ATO relocated the ILS antenna approximately 1 year earlier,
       and (2) an RSA at Dulles International Airport meets standards, even though
       the determination notes that the RSA does not meet standards due to a non-
       compliant ILS antenna.

To correct these deficiencies, FAA needs to issue detailed guidance to its regional
offices on the proper identification, tracking, and reporting of RSA status
nationally. FAA also needs to ensure all regional offices receive training on the
new guidance. Finally, FAA needs to implement an effective quality assurance
process to ensure the accuracy of data in RSA determinations and the RSA
Inventory.     This process should electronically link the determination


15
     FAA Order 5200.8, Runway Safety Area Program, 1999.
                                                                                                                     17


documentation from FAA regional offices to the RSA Inventory, thereby
eliminating errors between the two data sets.

FAA’s Annual Report to Congress Does Not Accurately Reflect Status of
RSA Improvements
FAA’s annual report to Congress, which was mandated by law in 2005,16 contains
inaccuracies and therefore does not fully inform Congress on the status of RSA
improvements. We found that a number of factors are causing these discrepancies
in FAA’s report. In particular, we found that FAA:

     • primarily relies on the RSA Inventory to summarize RSA status, although the
       Inventory contains inaccurate or outdated data,
     • provides only summary information on the number of improvements
       completed and the number remaining but does not identify individual airports,
     • reports RSA improvements as complete even though some of these
       improvements did not result in the RSA meeting the full standards,
     • fails to address those RSAs that do not meet standards due to non-compliant
       NAVAIDs and thus over-reports the total number of RSAs fully meeting
       standards by more than one-fourth, and
     • understates the future funding requirements for RSA improvements since it
       does not include cost estimates for those airport sponsors that have yet to
       decide on a corrective action.

As a result, Congress does not know which airports have RSAs that do not meet
standards (e.g., those containing non-compliant NAVAIDs) or what risks may
prevent airports from meeting the 2015 deadline—such as the 11 large airports
highlighted in this report.

In our opinion, FAA’s annual report to Congress should identify (1) which RSAs
do not meet the full design standards and specific reasons for noncompliance,
(2) what plans are in place to allow these RSAs to attain the full standards,
(3) what risks may prevent these RSAs from meeting standards by 2015, and
(4) what financial assistance is needed from FAA to make these improvements.
Such enhancements to the annual report will assist Congress and other
Government officials in making informed decisions related to RSA funding and
program priorities.



16
     In 2005, Congress mandated in Public Law 109-115 that FAA “shall report annually to the Congress on the agency’s
     progress toward improving runway safety areas” at all Part 139 certificated airports. FAA issued its first report in
     May 2007 and its second report in July 2008.
                                                                                18



RECOMMENDATIONS
We recommend the following actions to FAA’s Office of Airports:

1. Develop and implement an action plan for ensuring RSAs at the 11 large
   airports are improved to the fullest extent practical. This plan should include
   projected milestones and costs, a designated improvement method, and the
   extent to which RSAs will meet standards.

2. Work with the ATO to develop and implement an effective program for
   addressing NAVAIDs located in RSAs. This program should focus on
   (a) improved coordination, (b) guidance on using new 3-inch frangible bolts,
   and (c) a plan for relocating or modifying those NAVAIDs posing the greatest
   safety risk.

3. Issue detailed guidance and conduct training for all field offices on the proper
   identification, tracking, and reporting of RSA status, including NAVAIDs.

4. Implement quality control procedures to ensure the accuracy and integrity of
   RSA data. These procedures should (a) standardize documentation for field
   offices to use in making determinations, (b) electronically link determinations
   from FAA regional offices with the RSA Inventory, and (c) require periodic
   tests of data maintained in RSA Inventory.

5. Expand the annual report to Congress to identify (a) which RSAs do not meet
   the full RSA design standards and specific reasons for noncompliance (e.g.,
   non-compliant NAVAIDs, roadways, or rivers); (b) what plans are in place to
   allow these RSAs to attain full standards; (c) what challenges exist to prevent
   these RSAs from meeting the full standards by 2015; and (d) what financial
   assistance will be needed to achieve planned improvements.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided FAA with our draft report on December 18, 2008. We received
FAA’s formal response on February 6, 2009, which is included in its entirety in
the appendix to this report. In addition to its response, FAA provided a number of
clarifying technical comments. We addressed these comments as appropriate in
our final report.

FAA concurred with all five recommendations and plans to take several corrective
actions. For example, FAA will direct its regions to energize efforts on
completing RSA improvement plans for each of the 11 major airports cited in our
report. FAA is also working to identify and address non-compliant NAVAIDs in
                                                                                 19


RSAs and plans to issue an advisory circular on frangible bolts in March 2009.
Finally, FAA will take a number of steps to improve the quality of the RSA
Inventory data and its annual report to Congress.

FAA’s planned actions are responsive to our recommendations, and we consider
all five recommendations to be resolved but open pending completion of the
planned actions. We appreciate the courtesies and cooperation of FAA
representatives during this audit. If you have any questions concerning this report,
please contact me at (202) 366-0500 or Darren L. Murphy, Program Director, at
(206) 220-6503.

                                         #

cc: FAA Deputy Administrator
    Chief Operating Officer, Air Traffic Organization
    Associate Administrator for Airports
    Anthony Williams, ABU-100
    Martin Gertel, M-1
                                                                                                                  20



EXHIBIT A. SCOPE AND METHODOLOGY
We conducted this performance audit in accordance with generally accepted
Government Auditing Standards prescribed by the Comptroller General of the
United States. As required by those standards, we obtained evidence that we
believe provides a reasonable basis for our findings and conclusions based on our
audit objectives. We conducted the audit between November 2007 and
November 2008 and included such tests of procedures and records as we
considered necessary, including those providing reasonable assurance of detecting
abuse and illegal acts.

During our audit, we visited or contacted FAA Headquarters, Airport regional
offices, Airport district offices, and ATO service centers. We also visited or
contacted a number of airport sponsors, airports, and stakeholder organizations.
See exhibit B for a complete list of facilities visited or contacted during the audit.

To assess FAA’s and airports’ progress and challenges, if any, in fulfilling the
congressional RSA mandate, we selected a judgmental sample of 163 of the
1,016 RSAs nationwide. 17 The sample was designed to capture a mix of large,
medium, and small airports requiring RSA improvements and associated FAA
regional and district offices. As part of this process, we reviewed FAA and airport
sponsor documentation showing the status of the 163 RSAs at 30 large,
10 medium, and 13 small airports. We then interviewed FAA and airport officials
to determine the status of future RSA improvements and to identify any
impediments that would prevent an RSA from meeting standards by the 2015
congressional deadline. Moreover, from the list of 30 large airports, we identified
11 that have RSAs facing major man-made, natural, environmental, and legal
challenges to being brought up to standards (see exhibit C). Finally, for RSAs that
FAA considers impracticable to improve, we reviewed relevant documentation
and discussed FAA’s rationale for its decisions.

To evaluate the effectiveness of FAA’s process for identifying, prioritizing, and
funding needed RSA improvements, we interviewed FAA Headquarters officials;
reviewed various planning, funding, and reporting documents; and obtained a list
of the RSA universe. We also interviewed personnel at FAA regional and Airport
District Offices and obtained documentation showing the current status of RSAs.
Due to significant differences in RSA determinations and the RSA Inventory, we
could not rely on those data sources. We therefore visited selected airports and
their RSAs to validate and test the accuracy of the information. Finally, we
discussed our observations with FAA and airport officials.

17
     Between 2000 and 2007, the total number of RSAs at Part 139 airports decreased from 1,024 to 1,016 due to various
     reasons, including data errors in the RSA Inventory and decommissioned runways. In addition, the 1,016 RSAs
     were located at 53 airports (e.g., 30 large hubs, 10 medium hubs, and 13 small hubs).


Exhibit A. Scope and Methodology
                                                                        21


EXHIBIT B. FACILITIES VISITED OR CONTACTED

Airports

       •   Baltimore Washington International, MD
       •   Bob Hope Burbank, CA
       •   Boston Logan International, MA
       •   Charlotte-Douglas International, NC
       •   Fort Lauderdale/Hollywood Airport, FL
       •   John F. Kennedy International, NY
       •   John Wayne-Orange County, CA
       •   LaGuardia, NY
       •   Los Angeles International, CA
       •   Long Beach, CA
       •   Long Island MacArthur, NY
       •   Metropolitan Oakland International, CA
       •   Newark Liberty International, NJ
       •   Phoenix Sky Harbor International, AZ
       •   Reagan National, DC
       •   Sacramento International, CA
       •   San Diego International, CA
       •   San Francisco International, CA
       •   Teterboro, NJ
       •   White Plains, NY

Airport Sponsors/Owners

       •   Maryland Aviation Administration, Linthicum, MD
       •   Metropolitan Washington Airports Authority, Washington, DC
       •   Port Authority of New York/New Jersey, New York, NY
       •   Town of Islip, NY

FAA Airport District Offices

       •   Atlanta Airport District Office, Atlanta, GA
       •   Honolulu Airport District Office, Honolulu, HI
       •   Los Angeles Airport District Office, Lawndale, CA
       •   New York Airport District Office, Garden City, NY
       •   San Francisco Airport District Office, Burlingame, CA
       •   Washington Airport District Office, Dulles, VA


Exhibit B. Facilities Visited or Contacted
                                                                          22


FAA Regional Offices

       •   Eastern Regional Office, Jamaica, NY
       •   Great Lakes Regional Office, Des Plaines, IL
       •   New England Regional Office, Burlington, MA
       •   Northwest-Mountain Regional Office, Renton, WA
       •   Southern Regional Office, College Park, GA
       •   Southwestern Regional Office, Ft. Worth, TX
       •   Western-Pacific Regional Office, Lawndale, CA

FAA ATO Service Centers

       • Central Service Center, Ft. Worth, TX
       • Eastern Service Center, College Park, GA
       • Western Service Center, Renton, WA

FAA Headquarters, Washington, DC

       • Office of Airport Safety and Standards, Office of Airports
       • Office of Airport Planning and Programming, Office of Airports
       • Navigation Services Office, Air Traffic Organization

Stakeholders

       •   Air Line Pilots Association, Washington, DC
       •   American Association of Airport Executives, Alexandria, VA
       •   Applied Research Associates, Elkridge, MD
       •   National Transportation Safety Board, Washington, DC
       •   Engineered Arresting Systems Corporation, Logan Township, NJ




Exhibit B. Facilities Visited or Contacted
                                                                              23


EXHIBIT C. ELEVEN LARGE AIRPORTS FACING SIGNIFICANT
CHALLENGES TO IMPROVING RSAS
Baltimore Washington International-Thurgood Marshall Airport (State of
Maryland) must improve four RSAs. All four RSAs are constrained by
interstate and state highways. The airport sponsor and FAA have agreed on
methods for improving the RSAs but will not execute them until the sponsor has
updated the airport’s long-range Master Plan. This plan may decommission one of
the runways, which would eliminate the need to improve one of the four RSAs. In
addition, the Master Plan must be approved by FAA and undergo an
environmental review. Finally, three of the four RSAs have NAVAIDs that need
to be either relocated or made frangible.

Boston Logan International Airport (Boston, Massachusetts) must improve
one RSA. This airport is constrained by Boston Harbor and urban development.
As an interim measure to improving the RSA, the airport sponsor installed a
partial EMAS (at its own cost) and is studying the possibility of installing a
runway deck or filling in part of Boston Harbor and then installing a full EMAS.
In addition, FAA’s regional office raised the maximum feasible improvement cost
to over $40 million because the runway is used by Boeing 747 aircraft and was the
site of a fatal 1982 accident. The airport sponsor has started assessing the
project’s environmental impact and plans to complete the project by late 2013.

Charlotte-Douglas International Airport (Charlotte, North Carolina) must
improve two RSAs. The airport sponsor is installing an EMAS on one RSA but
is waiting for that project’s completion before deciding on actions for the other
RSA. This second RSA is constrained by a parkway and railroad tracks, and may
be required to undergo an environmental review.

Fort Lauderdale/Hollywood Airport (Broward County, Florida) must
improve three RSAs. The first RSA, which is constrained by a canal, an
interstate highway, and railroad tracks, will be improved during a runway
extension project. This project completed the environmental review process in
January 2009. The second RSA is not likely to be improved since the airport
sponsor plans to decommission the associated runway once the above extension
project is completed. The third RSA—which has been improved with a partial and
full EMAS—still contains four non-frangible NAVAIDs.




Exhibit C. Eleven Large Airports Facing Significant Challenges To Improving
RSAs
                                                                                24


John F. Kennedy International Airport (Port Authority of New York and
New Jersey) must improve three RSAs. This airport is constrained by Jamaica
Bay, roads, and wetlands. One RSA is being improved during a 2009-2010
runway rehabilitation project, which includes capacity enhancements (e.g., new
taxiways). After the project is complete, the airport sponsor plans to begin the
other two RSA improvement projects. Completing runway rehabilitation and RSA
improvement projects requires careful sequencing so that they do not reduce
operations on the airport’s runways. As a result, FAA officials noted that it may
take more than 7 years to complete the RSA improvements. The airport sponsor is
currently designing the improvement projects, which will have to undergo
environmental review.

LaGuardia Airport (Port Authority of New York and New Jersey) must
improve two RSAs. Although partial EMAS have been installed on the airport’s
two RSAs, final improvements—which involve extending runway decks over
Flushing Bay—present engineering challenges and may take more than 8 years to
complete. FAA estimates that the cost of these improvements will be more than
$36.5 million. The airport sponsor is designing the project but has not completed
the environmental review process.

Los Angeles International Airport (Los Angeles, California) must improve
two RSAs. These two RSAs are on the airport’s north side and are constrained by
roads, urban development, and environmentally sensitive areas. The airport has
two other RSAs, on the airport’s south side, that were brought up to standards in
2008 during runway expansion projects. Improvements to the remaining two have
been delayed by legal battles over the airport’s Master Plan, which requires the
airport sponsor to redesign north side runway expansion projects and submit them
to local review. The airport sponsor is conducting a state environmental impact
review, which will be followed by a Federal environmental impact statement.
These studies, which may be finished as early as 2011, will help determine the
preferred design for the north side runways.

Philadelphia International Airport (Philadelphia, Pennsylvania) must
improve two RSAs. This airport is constrained by the Schuylkill and Delaware
Rivers, an interstate highway, a U.S. Army Corps of Engineers dredge disposal
site, and an industrial area. One RSA requires the airport sponsor and the
U.S. Army Corps of Engineers to reach an agreement on how to mitigate the
project’s impact on wetlands. The second RSA improvement project is part of a
larger program to enhance Philadelphia International’s capacity, and that project’s
draft environmental impact statement is expected to be issued before 2009.
Finally, the airport’s other two RSAs meet dimensional standards but contain
non-frangible ALS structures.



Exhibit C. Eleven Large Airports Facing Significant Challenges To Improving
RSAs
                                                                                 25


Phoenix Sky Harbor International Airport (Phoenix, Arizona) must improve
one of its three RSAs. This airport is bordered by a river and urban development.
FAA has approved the installation of an EMAS in this RSA; however, the City of
Phoenix would like to construct a full, standard RSA extending 1,000 feet beyond
each runway end. FAA approves of Phoenix pursuing the full RSA, but the city
has not finished a study on how to complete the project. Once the study is
complete, the project will must be approved by FAA and undergo an
environmental review.

Reagan National Airport (Washington, D.C.) must improve its three RSAs.
The airport is constrained by the George Washington Parkway and the Potomac
River. The airport sponsor plans to improve one RSA by extending the main
runway and has already started assessing the project’s environmental impact. The
sponsor has not yet decided how to improve the other two RSAs but plans to do so
after completing a second environmental assessment.

San Francisco International Airport (San Francisco, California) must
improve its four RSAs. The airport is challenged by San Francisco Bay and
Highway 101. Although it is conducting a study to determine how best to address
the airport’s four RSAs, the sponsor tentatively plans on using declared distances
to bring two RSAs up to standards. The other two RSAs may be impossible to
extend within current airport property limits and, as a result, may be impracticable
to bring up to full dimensional standards.




Exhibit C. Eleven Large Airports Facing Significant Challenges To Improving
RSAs
                                                              26



EXHIBIT D. MAJOR CONTRIBUTORS TO THIS REPORT


Name                                           Title

Darren Murphy                           Program Director

Jerrold Savage                          Project Manager

Greggory Bond                           Senior Auditor

Curtis Dow                              Auditor

Michael Dunn                            Auditor

Henning Thiel                           Auditor

Petra Swartzlander                      Senior Statistician

Andrea Nossaman                         Writer-Editor




Exhibit D. Major Contributors to This Report
                                                                                     27



APPENDIX. AGENCY COMMENTS
                   Federal Aviation
                   Administration


Memorandum
Date:           February 6, 2009
To:             Lou E. Dixon, Assistant Inspector General for Aviation and Special
                 Program Audits

From:           Lynne Osmus, Acting Administrator, AOA-1
Prepared by:    Catherine M. Lang, Acting Associate Administrator for Airports, ARP-1
Subject:        Draft Report on the Federal Aviation Administration’s Runway Safety
                Area (RSA) Program – Project Number 07A3013A000; Your Memo of
                12/18/08


Thank you for the opportunity to provide comments on your draft report of December 18,
2008.

Overall, we found your draft RSA report to be very useful. We concur with your
recommendations. However, we do have some concerns with portions of the report’s
findings and incorrect technical statements. We have attached a redlined copy of the
draft report that addresses these concerns and provides clear background information on
the FAA’s RSA program.

We have also attached a response to your five specific recommendations.

Attachments




Appendix. Agency Comments
                                                                                          28


                                                                            Attachment 1

                                                                            (Page 1 of 2)

Recommendation #1: Develop and implement an action plan for ensuring RSAs at the
11 large airports are improved to the fullest extent practicable. This plan should include
projected milestones and costs, designated improvement method, and the extent to which
RSAs will meet standards.

FAA response #1: FAA agrees. We will direct FAA regions to energize efforts on
working with sponsors to complete plans for each of these RSAs. Four of the 11 airports
have plans in place for improving RSAs. We will require FAA regions to submit the
plans to Headquarters and require status reports at the end of each fiscal year. Summaries
of these reports will be included in the report to Congress starting in 2009.

Recommendation #2: Work with ATO to develop and implement an effective program
for addressing NAVAIDs located in RSAs. This program should focus on (a) improved
coordination, (b) guidance on using new 3-inch frangible bolts, and (c) a plan for
relocating or modifying those NAVAIDs posing the greatest safety risk.

FAA response #2: FAA agrees. The Office of Airports continues to work with the
Air Traffic Organization to develop procedures for the two organizations to identify
NAVAIDS in RSAs and to take appropriate action to comply with RSA standards by
2015. We will develop these procedures by May 15, 2009. We will develop a plan,
schedule, and budget for completing the NAVAID RSA projects to the extent practicable
by the end of 2015. This plan will be completed by June 30, 2009. Finally, we will issue
an advisory circular providing updated guidance on frangible bolts in March, 2009.

Recommendation #3: Issue detailed guidance and conduct training for all field offices
on the proper identification, tracking, and reporting of RSA status, including NAVAIDs.

FAA response #3: FAA agrees. We will continue to support the RSAI database and
provide guidance as needed for reporting purposes. The RSAI database has been through
16 revisions since it was first developed in 2000. There is a detailed user guide posted on
a common electronic folder, and internal orders are in place to ensure quality data.
Updated guidance will be issued by June 30, 2009. The guidance will address training
issues, as we understand one of the problems with the proper data entry is that the
responsibility for entering data often shifts to new people due to transfers, retirements, or
other actions.

Recommendation #4 Implement quality control procedures to ensure the accuracy and
integrity of RSA data. These procedures should (a) standardize documentation for field
offices to use in making determinations, (b) electronically link determinations from FAA
regional offices with the RSA Inventory, and (c) require periodic tests of data maintained
in RSA Inventory.




Appendix. Agency Comments
                                                                                      29


                                                                         (Page 2 of 2)

FAA response #4: FAA agrees. The RSA database is being constantly updated. We
will review these procedures to identify improvements that can be implemented,
including electronically linking determinations from FAA regional offices. We will
complete this review by September 30, 2009. The review will address the need for
periodic review of the data and sharing of the data with the Airport Development Offices
(ADO) who are in the best position to validate the data entries.

Recommendation #5: Expand the annual report to Congress to identify (a) which RSAs
do not meet the full RSA design standards, (b) what plans are in place to allow these
RSAs to attain full standards, (c) what challenges exist to prevent these RSAs from
meeting the full RSA design standards by 2015, and (d) what financial assistance will be
needed to achieve planned improvements.

FAA response #5: FAA agrees and will include this information in the 2009 report to
Congress.




Appendix. Agency Comments
The following pages contain textual versions of the graphs and charts included in this
document. These pages were not in the original document but have been added here to
accommodate assistive technology.
 Actions Taken and Needed To Improve the Federal Aviation Administration’s
                       Runway Safety Area Program

                       Section 508 Compliant Presentation

Figure 1. Runway Safety Area Dimensional Standards

Figure depicts standard runway safety area surrounding a runway with the
dimensional requirements noted. Specifically, runway safety areas must typically be
1,000 feet by 500 feet at each runway end and 250 feet from the runway centerline.

Figure 2. Runway Safety Area Obstacles at Reagan National Airport

Aerial photograph shows Reagan National Airport area and notes location of
environmental clean-up site, runway distance from Potomac River (170 feet), and
runway distance from the George Washington Parkway (120 feet).

Source: Google and Office of Inspector General

Table. Examples of Major Runway Accidents Involving Non-Standard Runway
Safety Areas

 • Accident at Little Rock National Airport in June 1999 resulted in 105 injuries and
   11 fatalities.

 • Accident at Bob Hope Burbank Airport in March 2000 resulted in 44 injuries.

 • Accident at Teterboro Airport (New Jersey) in February 2005 resulted in
   14 injuries.

 • Accident at Chicago’s Midway International Airport in December 2005 resulted in
   22 injuries and 1 fatality.

Source: National Transportation Safety Board

Figure 3. Aircraft Damage from Hitting Navigational Aid at Dekalb-Peachtree
Airport

Photograph shows damaged aircraft wing and destroyed navigational aid.

Source: Federal Aviation Administration
Figure 4. Data Errors in the Federal Aviation Administration’s Runway Safety
Area Inventory

 • Runway Safety Area Inventory states that a runway safety area at Baltimore
   Washington International Airport meets standards even though it is less than the
   required 250 feet on 1 side of the runway.

 • Runway Safety Area Inventory states that a runway safety area at Dulles
   International Airport meets standards, even though an Instrument Landing System
   needs to be relocated.

 • Runway Safety Area Inventory states that $39 million was needed for a major
   runway and runway safety area project at Los Angeles International Airport when
   it had been completed 1 year earlier.

Figure 5. Constrained Runway Safety Areas at Reagan National Airport

Aerial photograph shows three runway safety areas at Reagan National Airport which
are constrained by an environmental clean-up site, the Potomac River, and the George
Washington Parkway.

Source: Google and Office of Inspector General

Figure 6. Constrained Runway Safety Areas at San Francisco Airport

Aerial photograph shows four constrained runway safety areas at San Francisco
International Airport. The four runway safety areas are bordered by San Francisco
Bay and Highway 101.

Source: Wikipedia and Office of Inspector General

Figure 7. Runway Safety Area Engineered Material Arresting System (or
EMAS) Extension Project at Boston Airport

Aerial photograph of Boston Logan Airport shows end of Runway 15R/33L meeting a
partial EMAS, which measures 158 feet by 170 feet. Area outlined in red shows how
the proposed full-sized EMAS would extend over Boston Harbor.

Source: Wikipedia and Office of Inspector General
Figure 8. Glide Slope Antenna at Long Beach Airport

Photograph shows large, non-frangible Instrument Landing System glide slope
antennae at Long Beach Airport.

Source: Office of Inspector General

Figure 9. Power Shed at Long Beach Airport

Photograph shows large, non-frangible power shed building at Long Beach Airport.

Source: Office of Inspector General

Figure 10. 3-Inch Frangible Bolt

Photograph shows frangible bolt required to secure navigational aids located in
runway safety areas. The bolt is positioned vertically on a desk next to an ink pen to
show actual size.

Source: Federal Aviation Administration.
